<html>
<title> - LETTING KIDS BE KIDS: BALANCING SAFETY WITH OPPORTUNITY FOR FOSTER YOUTH</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





                         LETTING KIDS BE KIDS:
                         BALANCING SAFETY WITH
                      OPPORTUNITY FOR FOSTER YOUTH

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 9, 2013

                               __________

                          Serial No. 113-HR04

                               __________

         Printed for the use of the Committee on Ways and Means


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                         U.S. GOVERNMENT PUBLISHING OFFICE 

89-539                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          









                      COMMITTEE ON WAYS AND MEANS

                     DAVE CAMP, Michigan, Chairman

SAM JOHNSON, Texas                   SANDER M. LEVIN, Michigan
KEVIN BRADY, Texas                   CHARLES B. RANGEL, New York
PAUL RYAN, Wisconsin                 JIM MCDERMOTT, Washington
DEVIN NUNES, California              JOHN LEWIS, Georgia
PATRICK J. TIBERI, Ohio              RICHARD E. NEAL, Massachusetts
DAVID G. REICHERT, Washington        XAVIER BECERRA, California
CHARLES W. BOUSTANY, JR., Louisiana  LLOYD DOGGETT, Texas
PETER J. ROSKAM, Illinois            MIKE THOMPSON, California
JIM GERLACH, Pennsylvania            JOHN B. LARSON, Connecticut
TOM PRICE, Georgia                   EARL BLUMENAUER, Oregon
VERN BUCHANAN, Florida               RON KIND, Wisconsin
ADRIAN SMITH, Nebraska               BILL PASCRELL, JR., New Jersey
AARON SCHOCK, Illinois               JOSEPH CROWLEY, New York
LYNN JENKINS, Kansas                 ALLYSON Y. SCHWARTZ, Pennsylvania
ERIK PAULSEN, Minnesota              DANNY K. DAVIS, Illinois
KENNY MARCHANT, Texas                LINDA T. SANCHEZ, California
DIANE BLACK, Tennessee
TOM REED, New York
TODD C. YOUNG, Indiana
MIKE KELLY, Pennsylvania
TIM GRIFFIN, Arkansas
JAMES B. RENACCI, Ohio

        Jennifer M. Safavian, Staff Director and General Counsel

                  Janice Mays, Minority Chief Counsel

                                 ______

                    SUBCOMMITTEE ON HUMAN RESOURCES

                DAVID G. REICHERT, Washington, Chairman

TODD C. YOUNG, Indiana               LLOYD DOGGETT, Texas
MIKE KELLY, Pennsylvania             JOHN LEWIS, Georgia
TIM GRIFFIN, Arkansas                JOSEPH CROWLEY, New York
JAMES B. RENACCI, Ohio               DANNY K. DAVIS, Illinois
TOM REED, New York
CHARLES W. BOUSTANY, JR., Louisiana










                            C O N T E N T S

                               __________
                                                                   Page

Advisory of May 9, 2013 announcing the hearing...................     2

                               WITNESSES

The Honorable Nancy Detert, Florida Senate Senator, District 28..     8
Talitha James, Foster Youth Fellow, Kidsave......................    18
Irene Clements, President, National Foster Parent Association....    22
David Wilkins, Secretary, Florida Department of Children and 
  Families and Tanya Wilkins, Advocate for Foster Care and 
  Adoption, Governor's Office of Adoption and Child Protection...    34
Lynn Tiede, Senior Associate Director for Policy, Jim Casey Youth 
  Opportunities Initiative.......................................    48

                       SUBMISSIONS FOR THE RECORD

CCAI, statement..................................................    78
Generations United Outside Submission............................    73
Linda Young, statement...........................................    88
Mandy Urwiler, letter............................................    89
Will Lightbourne and Frank Mecca, statement......................    90

                        QUESTIONS FOR THE RECORD

Florida Department of Children and Families......................    71
 
                         LETTING KIDS BE KIDS:
                   BALANCING SAFETY WITH OPPORTUNITY
                            FOR FOSTER YOUTH

                              ----------                              


                         THURSDAY, MAY 9, 2013

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:32 a.m. in 
Room 1100, Longworth House Office Building, the Honorable David 
Reichert [Chairman of the Subcommittee] presiding.
    [The advisory of the hearing follows:]

HEARING ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

Chairman Reichert Announces Hearing on Letting Kids Be Kids: Balancing 
                Safety With Opportunity for Foster Youth

Washington, May 2013

    Congressman Dave Reichert (R-WA), Chairman of the Subcommittee on 
Human Resources of the Committee on Ways and Means, today announced 
that the Subcommittee will hold a hearing titled, ``Letting Kids Be 
Kids: Balancing Safety with Opportunity for Foster Youth.'' The hearing 
will review recent State efforts to improve the lives of foster youth 
by eliminating barriers that unnecessarily limit the activities of 
children in foster care. The hearing will take place at 9:30 a.m. on 
Thursday, May 9, 2013, in Room 1100 of the Longworth House Office 
Building.
      
    In view of the limited time available to hear from witnesses, oral 
testimony at this hearing will be from invited witnesses only. 
Witnesses will include experts from Florida, which has recently enacted 
legislation to improve opportunities for foster youth, as well as other 
experts in foster care and child welfare. However, any individual or 
organization not scheduled for an oral appearance may submit a written 
statement for consideration by the Committee and for inclusion in the 
printed record of the hearing.
      

BACKGROUND:

      
    In 2011, over 250,000 children entered foster care across the 
country. For these children, entering foster care is a traumatic 
experience resulting in dramatic changes in their lives. For example, 
children who enter foster care often move to a new school where they 
must make new friends, try to fit in, and begin new efforts to 
participate in sports and other activities in their new community. 
These and other changes make it even harder for foster youth to 
successfully grow and develop.
    In recent years, Congress has enacted a series of reforms designed 
to reduce the number of children in foster care, as well as increase 
the stability of the lives of youth in care. These recent Federal and 
State reforms have resulted in more children staying safely in their 
own homes and more children being adopted instead of languishing in 
foster care. For children who do enter foster care, several Federal 
laws have been designed to promote school stability to improve the 
lives of foster youth. The Fostering Connections to Success and 
Increasing Adoptions Act of 2008 sought to ensure that States keep 
foster youth in the same school whenever possible. The 2013 
Uninterrupted Scholars Act allows child welfare workers access to 
educational records of foster youth so children that have to change 
schools are less likely to fall behind.
    Some foster care policies and practices unnecessarily complicate 
the lives of foster youth. For example, when asked about their 
experiences in foster care, many current and former foster youth often 
cite rules that made it hard for them to participate in sports, stay 
over at a friend's house, get a driver's license, or hold down a part-
time job. While these policies and practices are often intended to 
ensure the youth's safety, such policies can also further isolate 
foster youth when they are seeking to integrate into a new family, 
school, and community.
    A number of States have taken steps to eliminate overly burdensome 
requirements and improve the lives of children in foster care. For 
example, California enacted a law in 2004 giving foster youth the right 
to participate in age-appropriate activities, while also making changes 
to State policy to eliminate overly restrictive rules for foster youth 
and foster parents. In April 2013, Florida enacted a law to reduce 
rules and regulations that currently limit the activity of children in 
foster care. Other States have taken similar actions to examine State 
policies and make reforms to allow foster youth to be treated more like 
other kids--including participating in age-appropriate activities like 
sports, staying over with friends, and getting a driver's license.
    In announcing the hearing, Chairman Reichert stated, ``Children in 
foster care deserve our protection. But they also deserve the same 
opportunities as other kids. Unfortunately, in the name of safety, 
foster youth are sometimes kept from participating in everyday 
activities like playing sports, spending time with friends, and getting 
a driver's license. A number of States have listened to the concerns of 
foster youth and made changes to better balance safety with 
opportunity. As May is National Foster Care Month, now is the perfect 
time to review this issue, highlight what some States have been doing 
about it, and determine what else we can do to help foster kids be 
kids.''
      

FOCUS OF THE HEARING:

      
    The hearing will review policies and practices that limit 
opportunities for foster youth, as well as review recent State efforts 
to allow foster parents and foster youth to make reasonable decisions 
about the youth's participation in everyday events and activities.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``Hearings.'' Select the hearing for which you would like to submit, 
and click on the link entitled, ``Please click here to submit a 
statement or letter for the record.'' Once you have followed the online 
instructions, submit all requested information. Attach your submission 
as a Word document, in compliance with the formatting requirements 
listed below, by Thursday, May 23, 2013. Finally, please note that due 
to the change in House mail policy, the U.S. Capitol Police will refuse 
sealed-package deliveries to all House Office Buildings. For questions, 
or if you encounter technical problems, please call (202) 225-1721 or 
(202) 225-3625.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word format and MUST NOT exceed a total of 10 pages, including 
attachments. Witnesses and submitters are advised that the Committee 
relies on electronic submissions for printing the official hearing 
record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons, 
and/or organizations on whose behalf the witness appears. A 
supplemental sheet must accompany each submission listing the name, 
company, address, telephone, and fax numbers of each witness.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
    Note: All Committee advisories and news releases are available 
online at 
http://www.waysandmeans.house.gov/.

                                 <F-dash>

    Chairman REICHERT. I will call this Subcommittee hearing to 
order, please. Welcome to today's hearing.
    Entering foster care is a life changing experience for 
children. Foster children are faced with a dizzying array of 
changes that are anything but normal, as all you know.
    They are separated from their parents. They are often sent 
to live with a family they have never met. They may start 
attending a new school, have to make new friends, and make new 
efforts to participate in sports and other activities they 
previously took for granted.
    On top of all this change, we know some child welfare 
policies have the unintended effect of making life even harder 
for our children.
    Rules may keep them from spending time with friends, 
participating in sports and even getting a driver's license or 
finding a summer job. For example, Ryan Cummings from my home 
State of Washington was not able to get a driver's license 
while in foster care. He missed going on vacation with his 
foster family because the rules did not allow him to travel.
    Georgiana Rodriguez from Florida could not play in the high 
school marching band. John Paul Horn from California needed to 
save money before his 18th birthday when he would be on his 
own, but his group foster home rules initially blocked him from 
being able to obtain a job.
    Such foster youth often speak of living in a separate world 
where they are isolated from the community around them, making 
it that much harder for them to succeed.
    While we clearly need to make sure children are safe while 
in foster care, these are examples that highlight how in some 
areas policy makers have gone too far in creating that separate 
world for these kids.
    Now the tide seems to be turning in some areas of the 
country. In recent years, Federal and state reforms have tried 
to allow more children to stay safely in their own homes or be 
adopted instead of spending year after year in foster care.
    For children who must enter foster care, Federal reforms 
have stressed helping children stay in their own school 
whenever possible. Some states have also taken on this issue 
directly. In 2004, California amended their laws to eliminate 
unnecessary restrictions on the activities of foster youth, and 
provide foster parents more flexibility to make responsible 
decisions.
    In 2011, foster youth in Washington State, working with the 
Mockingbird Society, highlighted this issue. Now my state has a 
working group to develop ways to make improvements.
    As we will hear today, Florida enacted a law just this year 
that is designed to ensure foster youth are treated more like 
every other child. This law will allow foster youth more 
freedom to participate in age-appropriate activities like 
sports, sleepovers with friends, and getting a driver's 
license.
    We are going to review those efforts today.
    In the process, we have learned what is being done to 
improve the lives of foster youth and how we can work together 
to better ensure that foster kids can successfully grow and 
develop like other children.
    That is our responsibility, and we welcome all of today's 
witnesses to help us achieve that goal.
    Some of you on the panel may not know my background, but I 
want to share this very quickly. I was in law enforcement for 
33 years before I ended up here in Congress. I look like I have 
been here for 40 years, but it has only been nine, a little 
over eight, really.
    Thirty-three years with the Sheriff's Office in Seattle, 
and part of my time working in the Sheriff's Office, I worked 
on the Green River serial murder case. You might imagine the 
number of young people that the task force members came in 
contact with, children who ran away from home for all kinds of 
reasons, unimaginable treatment sometimes in the homes that 
they ran from, ending up on the street, ending up in foster 
homes, from one foster family to another foster family, running 
away again, out on the street.
    One of the things I like would like to make clear for the 
record, back in the 1980s when we were working this case, the 
detectives cared so much that they gave their home phone 
numbers to these children on the streets. You probably know 
some police officers in your own community who care that much 
and accept those phone calls.
    In the middle of the night, I can remember driving out to 
meet a child who said I do not want to be out here, but I just 
ran away from my foster home. I have nowhere to go. I cannot be 
who I want to be.
    They could not get adopted, they were 14, 15, 16. It was a 
sad experience. We were able to help some of those young 
people. I get calls today still from some of those, mostly 
young women, who I met during that time, who have grown to be 
educated, successful, and have a family.
    There are always good stories to share with folks.
    Thank you all for what you do. I now yield to Mr. Davis for 
his opening statement.
    Mr. DAVIS. Thank you very much, Mr. Chairman. Either 
fortunately or unfortunately, Mr. Doggett cannot be here today, 
the Ranking Member for this Subcommittee, and he asked if I 
would read his opening statement.
    Children in foster care have the same needs, desires and 
dreams of all children. They need a safe and loving home, and 
they want and deserve the opportunity to learn, to grow, and to 
fully experience life.
    Our foster care system is rightly focused on trying to keep 
kids safe, but safety cannot be the only goal we pursue. 
Children in foster care deserve the opportunity to join in the 
activities that help young people gain confidence and maturity, 
but too many foster youth encounter a ``No Entry'' sign when it 
comes to competing in a sport or going on a field trip or 
working at a part time job.
    Some foster youth cannot even spend the night at a friend's 
house unless they ask their friend's parents to first undergo a 
criminal background check.
    These barriers further isolate kids who already feel 
isolated. Hopefully, this hearing will allow us to examine the 
policies and practices that unduly prevent foster youth from 
joining in the activities that other children take for granted.
    Helping foster youth experience the same things other kids 
do sometimes requires more than just granting them permission. 
Starting a savings account, applying to college, and getting a 
driver's license often requires some guidance and our financial 
assistance.
    Additionally, if we want to empower foster parents to make 
more decisions for the children in their care, we should review 
the supports we give to foster parents as well as our efforts 
to improve the recruitment and retention of caring parents.
    No policy will ever affect a child as much as a committed, 
caring and informed parent.
    Finally, to promote more normalcy for older foster youth, 
we encourage every state to extend foster care to the age of 
21. I have never met a parent who sends their child out the 
door without any support when they turn 18. That was the policy 
of our foster care system for far too long.
    About 20 states have now taken advantage of a change in the 
Federal law to extend foster care, and it is past time for the 
rest of the states to catch up.
    Investing in the success of our foster children is not only 
good for them but it will also reduce unemployment, 
homelessness, teenage pregnancy, incarceration, and other 
negative outcomes that cost society much, much more.
    Mr. Chairman, with this Committee taking the lead, Congress 
has made some progress in recent years in ensuring that a 
child's well being is a central goal of the foster care system.
    I look forward to working with you to continue that trend 
so that every foster child has an opportunity to succeed.
    I thank you for this hearing. I thank all the witnesses for 
coming to participate, and I yield back my time.
    Chairman REICHERT. Thank you, Mr. Davis. Thank you for 
standing in for Mr. Doggett. Mr. Doggett had a choice between 
being with the President of the United States or Mr. Davis and 
myself.
    [Laughter.]
    Chairman REICHERT. I know Mr. Doggett really cares about 
this issue and you can tell from the words that Mr. Davis read 
on his behalf that he is passionate about this, and I 
appreciate his work and Mr. Davis'. This Committee really has a 
close working relationship. Hopefully, we can find a way to 
help our children across this country.
    Without objection, each member will have the opportunity to 
submit a written statement and have it included in the record 
at this point.
    Chairman REICHERT. I want to remind our witnesses to please 
limit your oral statements to five minutes. However, without 
objection, all of the written testimony will be made a part of 
the permanent record today.
    On our panel this morning, we will be hearing from The 
Honorable Nancy Detert, Florida Senate. Talitha James, Foster 
Youth Fellow, Kidsave. Irene Clements, President, National 
Foster Parent Association.
    David Wilkins, Secretary, Florida Department of Children 
and Families, and Tanya Wilkins, Advocate for Foster Care and 
Adoption, Governor's Office of Adoption and Child Protection. 
Lynn Tiede, Senior Associate Director for Policy, Jim Casey 
Youth Opportunities Initiative.
    We are also pleased to be joined by another Ways and Means 
member this morning, Representative Buchanan from Florida. Mr. 
Buchanan would like to introduce a couple of our witnesses 
today.
    Mr. Buchanan.
    Mr. BUCHANAN. Thank you, Mr. Chairman. Thanks for this very 
important hearing. I was back a couple of years ago at a Boys 
and Girls Club, and they said children make up 25 percent of 
the population, 100 percent of the future. I want to thank not 
just our Chairman and the members here, but I also want to 
thank all of our witnesses for being here today. I have hung on 
to that because at the end of the day, that is really what it 
is all about. I really appreciate all the hard work you do 
here.
    It is an honor this morning to introduce my dear friend 
from Florida, State Senator Nancy Detert. I have known and 
admired her for over ten years. She has been an incredible 
Senator. She is a tireless worker with a passion for public 
service, fighting every day to better the lives of her 
constituents.
    I might add just this week I noticed she had the highest 
rating from our papers in terms of Florida finishing its 
legislative session. I think she got an A+. That is the grade I 
would give her as well.
    I should warn the Committee that Nancy has a reputation for 
not mincing words. She is very direct, very blunt. That is what 
I love about her, but she is going to tell you like it is.
    I hope my colleagues will take her words to heart today as 
I will.
    Also from Florida we have two special guests, Mr. Chairman. 
It is my pleasure to introduce from Florida, David and Tanya 
Wilkins. David and Tanya are an incredible husband and wife 
team. That is exactly what they are. My wife was telling me 
they were on a mission trip together a while back, so I know 
where their hearts are set in terms of the work they are doing.
    David is a very dynamic Secretary in the Florida Department 
of Children and Families, with a wealth of experience in both 
the private and public sector. Tanya is a tireless supporter 
for foster care and adoption.
    I think some of your children are some of our adopted 
foster children.
    David and Tanya were the recipient of the 2012 Daniel 
Webster Healthy Families Florida Leadership Award in 
recognition of their work on behalf of Florida's most at risk 
children.
    We are lucky to have them here today, and I look forward to 
their testimony. Thank you.
    Chairman REICHERT. Thank you, Mr. Buchanan. Senator Detert, 
you are recognized for five minutes.

   STATEMENT OF THE HONORABLE NANCY DETERT, A SENATOR IN THE 
                      FLORIDA STATE SENATE

    Ms. DETERT. Thank you, Mr. Chair. Thank you, Chairman 
Reichert and Members of the Subcommittee. Thank you, 
Congressman Buchanan, for your kind words.
    I am honored and thank you for the opportunity to 
participate in the hearing today. I am Nancy Detert, a State 
Senator from Florida. I served in the House from 1998 to 2006, 
and was elected to the Florida State Senate in 2008.
    In all those years, I have always served on the Committee 
for Children and Family and have chaired it on occasion. Foster 
care is an issue that I have dealt with for many, many years.
    Our foster care system historically has been focused on 
safety concerns and liability. We felt that our main purpose 
was to protect these children, to take them from unsafe homes 
and make sure they were safe, but in our quest to make them 
safe, what we have done is bubble wrapped these kids and 
deprived them of any kind of normalcy when it comes to 
childhood.
    We have designed a system where they have to check with 
their case worker over every move, things as simple as getting 
a haircut. We succeeded in protecting them but we deprived them 
of a life.
    Foster parents have concerns about safety. They have 
concerns about liability, but children typically miss many 
rights of passage common to their peers. While their friends 
are getting a driver's license, most children in care are not 
because they generally have no one to teach them to drive or 
lack the money for insurance. They do not have parents, they 
cannot even sign for insurance.
    Getting a first job, participating in sports, camping out 
with friends, even going to the prom, that are activities that 
are a normal part of growing up, but not common for children in 
our care.
    The issue of normalcy for children in foster care has been 
addressed in the past, and we promulgated rules in 2004, we 
made rules to solve all of these problems, but we have gone to 
community based care, and not everyone was following the rules.
    This year, we decided--former Secretaries have also issued 
memoranda and did everything they could do make people follow 
the rules, but they did not. Under our new Secretary of DCF, 
Secretary Wilkins, who we are very pleased to have, he is a 
Secretary who understands the issues and has seen them 
firsthand and cares, so the current Department of Children and 
Family Services implemented two surveys to gather data related 
to independent living services and outcomes.
    The surveys captured information from children 13 to 17, 
and from those who have aged out from 18 to 22.
    These are their findings: that children report that 66 
percent are able to spend time with friends without adult 
supervision; 46 percent can spend the night with friends; 53 
percent receive a personal allowance, which is one of our 
rules, so they can learn to manage small amounts of money, but 
that rule was not being implemented.
    Forty-four percent are allowed to go to school events, 
movies, shopping, and other unsupervised activities with 
friends; 14 percent have completed a driver's education course, 
and only two percent have a driver's license.
    I learned early in my legislative career that if you want 
to make a good law, you listen to the people who are affected 
by that law and try to implement the changes that they need, 
and we have listened to the kids.
    In Florida, we are fortunate enough to have a group of 
older teens and young adults known as ``Florida Youth Shine.'' 
Youth Shine is a peer driven organization that empowers young 
advocates across the State to regularly identify the challenges 
and help create solutions to our growing problems in our child 
welfare system.
    I just have a few seconds left and I want to share two 
things that we learned in testimony. A young woman began by 
thanking the committee for allowing her voice to be heard. She 
said when you think of normalcy, you think of what everyone 
else is doing. When I think of normalcy, I think of going back 
and forth to court for orders to allow me to do things like 
going to a basketball game or spending the night.
    This is not normalcy. Our new bill changes these laws and 
codifies our rules. We hope to have some time to tell you about 
the laws that we have passed this past session.
    Thank you for your time.
    [The information follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
   
   
   
    Chairman REICHERT. Thank you, Senator.
    Ms. James, five minutes, please.

    STATEMENT OF TALITHA JAMES, FOSTER YOUTH FELLOW, KIDSAVE

    Ms. JAMES. I want to thank the Committee for this 
opportunity to speak on behalf of former foster youth and 
current foster youth. My name is Talitha James. I am a former 
CCAI intern. I had the opportunity to intern here on the Hill, 
as well as I am a graduate from California State University of 
Fullerton.
    My experience in care, I was placed in care at the age of 
two. I emancipated at the age of 18. My experience in care was 
not that great, but I know that a lot of youth had the 
opportunity to be placed in great homes, but I did not have 
that opportunity.
    I was placed in homes where I was not allowed to be myself, 
and I was not allowed to participate in sports. The reason 
being was that one of the homes I was placed in, the foster 
parent pretty much told me that I should go to therapy instead 
of playing sports. That was something that I held on to because 
I had a desire to play sports.
    As you have all seen the picture that is being passed 
around, I was on the volleyball team at Lancaster High School 
when I was placed with my aunt, so at the age of 14, I was 
placed with my aunt, and my aunt took the initiative to just 
bypass all the barriers that social workers put in place that 
do not allow foster youth to play sports. She took it upon 
herself to allow me to play sports, and that pretty much 
changed my life.
    Me playing sports, I was allowed to learn what team 
development was all about. I was allowed the opportunity to, 
you know, mess up, and not be reprimanded for that.
    Now, prior to me being on that team, I was bounced around 
from homes to homes, and they did not see the importance of a 
foster child playing sports. And, at that time, as well, they 
also said there was no funding for me to play sports for me or 
no funding for them to pay for a uniform. So that was another 
reason why I was not allowed to play sports. And I just wanted 
to highlight the importance of a lot of the barriers we put in 
place for foster youth to protect them, like we've heard, is a 
hindrance to their success as an adult.
    Had I not played on that team, a lot of the skills that I 
learned on that team I wouldn't have today, just the love for 
sports, the love for my coach that I developed on that team I 
would not have today. So I just wanted to highlight that 
important piece, as well as when I was in care I did not have 
the opportunity to receive rides from friends when I was going 
home. So I would have to walk to school and from school, 
because my foster parents at the time did not want to drop me 
off at school.
    So we had to walk to school. And, a lot of the times my 
friends would offer me the opportunity to have a ride home, but 
I had to explain to them that I couldn't. And, so, finally, one 
of my friends asked me. She said, ``Is everything okay? Are you 
okay?'' And I just finally told her I can't take the ride home, 
because I'm a foster youth. And it didn't make sense to her. 
And she was just so confused, and for me, I understood, because 
I knew the system. But she didn't understand the system. So 
that kind of showed me that that wasn't a normal thing for me 
not to be able to receive a ride from a friend on my way home.
    So those are just a few things I wanted to highlight about 
my experience and care. And, lastly, there was an opportunity 
for me to spend a night at a friend's house. And because they 
did not have time to complete a background check and all those 
things that you have to do in order for a child who is in 
foster care to spend the night, they did not have time to do 
that. And, so, my best friend, again, she wanted me to spend 
the night, and I couldn't do so.
    And, finally, the family, my best friend's family followed 
through on the requirements of completing a background check 
and doing all they needed to do so that I could spend the 
night. And, unfortunately, because they had a pool that was 
raised above ground and it did not have a fence around it, I 
ultimately could not spend the night at the friend's house. So 
it's a lot of barriers in place and we can't tackle them all, 
but I appreciate this opportunity to address the things we can 
tackle, which I think is the normalization of the experience of 
foster care. So, thank you.
    [The prepared statement of Ms. James follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   


    Chairman REICHERT. Thank you for your testimony. Thank you 
for being here at all, for the struggles that you've gone 
through; and today, here you are testifying in front of the 
United States Congress. Congratulations on your upcoming 
career.
    Ms. JAMES. Thank you.
    Chairman REICHERT. Ms. Clements, you are recognized.

STATEMENT OF IRENE CLEMENTS, PRESIDENT, NATIONAL FOSTER PARENT 
                          ASSOCIATION

    Ms. CLEMENTS. Thank you, Chairman Reichert, and Members of 
the Subcommittee for this opportunity. My name is Irene 
Clements and I'm president of the National Foster Parent 
Association. For the last 43 years, the National Foster Parent 
Association shared the Subcommittee's quest to elevate and 
dramatically improve the foster family services that our 
members provide to children for whom the government has assumed 
temporary and all too often long-term responsibility, as well 
as we serve as the national voice of foster parents.
    My husband and I fostered for 27 years, and during that 
time we fostered 127 children and adopted four of those 
children. During our tenure as foster parents, we fostered 
children of all ages; however, the last 12 years were dedicated 
to youth 14 and over. While we know a lot of well-meaning 
legislation has been passed since 1991, we still have a system 
that's not working well for the children it was designed to 
serve.
    Children experience too many placement disruptions. They're 
often not placed with siblings. They're often placed too far 
from their biological parents to have effective and frequent 
visits or remain in their school. They're frequently not 
involved in decisions made on their behalf or attend court. 
Some children experience unneeded medications, and they often 
feel singled out as different. I'm going to use a couple of 
examples that I have put in my testimony to explain the kind of 
the situations that children experience, but also the 
frustrations of the foster parents because of the system.
    Let me use an example of Mary, who's an 11-year-old child 
in foster care. She was a member of the 4H Club in her small 
town. She wanted to take sewing lessons really bad. They were 
every week on Thursday, after school, and there were four 
little girls in her class. The 4H leader, who taught the 
classes, had been the leader for many years and provided those 
lessons in her home. Mary's foster mother was told that Mary 
could not attend these sewing classes until the 4H leader, and 
any others living in her home who were over the age of 14 had 
criminal background checks.
    Mary didn't understand why the other three little girls 
could go into this home and have sewing lessons when she 
couldn't. Why was it okay for her peers when she couldn't do 
it? Bottom line was that Mary's foster mother said, ``If I 
could, I would have stayed there and supervised each week for 
two hours on Thursday, but I had commitments with two other 
children: one to take to karate class, and one to pick up from 
band practice.'' And because of the family not wanting to get 
everybody in the family to have background checks, because they 
might come home before the class was over, Mary wasn't allowed 
to be in sewing class. So she lost interest in 4H. She dropped 
out. She stopped going to anything. And she became so 
discouraged, and she wanted to know and she kept asking ``Why 
do my friends get to go, but I can't go? What's the 
difference?''
    Then, an example of John, who's a freshman in high school, 
who made the freshman football team. Really, really proud of 
himself, and is keeping his grades up so he can play. His 
foster mother always picked him up after practice every day, 
and occasionally his foster father; but, his foster father 
traveled some for work, and wasn't available all the time. On 
one particular day, John's foster mother had a medical 
emergency with John's sibling, who was also in her home, and 
they were at the hospital. She couldn't pick John up from 
football practice, and her husband wasn't home. So she called 
the coach and asked him if he could take John home.
    John, in his service plan, had the ability to be in the 
home for three hours without supervision. The coach said he 
couldn't do it, because of something else he had to do. But he 
would get one of John's friend's parents to take him home. 
Well, that had occurred. The foster mother got home with the 
other child in about two hours, and everything was fine. A 
couple of days later, the children's caseworker came, and they 
were discussing the hospital visit and then how John got home 
from football practice. Immediately, the caseworker said, 
``Well, you've broken many rules in this. Let me call my 
supervisor to see if I have to remove these children from your 
home, because you obviously did not supervise these children 
and made a bad decision on their behalf.''
    Thank God the supervisor said, ``No. Let's investigate a 
little bit further before you rip these kids out of this 
placement where they're doing very well.'' This family is not 
going to continue to foster, and they are a really good family. 
They have done really good work with a lot of kids, but they 
are so frustrated with a system that won't allow kids to have a 
normal life. And for when emergencies come up that we have 
understanding, that some of the time these things happen, and 
the outcomes can be all right.
    And, to conclude briefly, the National Association is 
literally looking forward to working with Congress to help make 
normalcy a reality. And we'll work diligently with foster 
parents around the country to help them trust that this move 
from risk aversion to a system that embraces normalization is 
real. Safety plus opportunity equals well being, and that's 
where we need to go with each of our kids. Thank you.
    [The prepared statement of Ms. Clements follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
   
    Chairman REICHERT. Thank you.
    Secretary Wilkins, and Mrs. Wilkins, you are recognized for 
five minutes.

 STATEMENT OF DAVID WILKINS, SECRETARY, FLORIDA DEPARTMENT OF 
                     CHILDREN AND FAMILIES

    Mr. DAVID WILKINS. Good morning, Chairman Reichert, Members 
of the Subcommittee and Congressman Buchanan. Thank you for 
giving us the opportunity to talk about this issue that's so 
near and dear to all of our hearts. And, as we previously 
mentioned, I am the Secretary of the Florida Department of 
Children and Families. And Tanya, my wife, is the Governor's 
Chief Advocate for Foster Care and Adoption.
    Tanya is a Registered Nurse. I worked for a global 
management consulting technology company for 30 years. We don't 
have a lot of experience in government, but our private sector 
experience and our experience raising our own three daughters, 
and our volunteer experience in fostering children in our home, 
I think, has given us a unique perspective of what are the 
issues. And we are here today to really tell you that the bill 
that we passed in the Florida legislature this session is 
something I think every state of the union could benefit from.
    You have heard testimony from Sen. Detert, talking about 
some of the challenges and some of the numbers of why children 
fell in foster care, and you've heard some of the other 
testimony about just some of the--no other word but bizarre 
rules and processes that have evolved into the foster care 
system over the years. You know, all of the statistics point 
out that the success of children in foster care is simply not 
adequate. And, on further analysis, a large reason of these 
inadequacies is related failures of our foster parenting 
system.
    Our foster parenting population in our state has dropped 
over 15 percent over the last three years. Not surprisingly, 
group home care has risen in that same timeframe. Upon 
surveying many of these parents, we were told that the 
frustrations are extremely high, and you heard some of the 
testimony there. Foster parents are burdened with paper work, 
court responsibilities, a list of job responsibilities, all 
centered around protecting the child, and the result is 
obvious. We are not letting kids be kids and we're not giving 
the parents the permission to parent.
    So, a culture change was needed in our state, and in 
essence to permeate the entire system with the information that 
normalcy in foster care is the most paramount of the goals. The 
parents of our children's families do not need to do 
backgrounds for sleepovers. Young people should be able to go 
to church activities without a licensed foster parent, and 
children should be included in all social and extra curricular 
activities.
    Having seen the need for these types of changes, we 
launched three, key initiatives in the state of Florida. One 
was around performance management of our provider network. We 
now believe that measuring performance is central to promoting 
accountability. We have developed a performance scorecard that 
measures contracted foster care agencies on 11 performance 
measures to determine how well they are meeting the most 
critical needs of our children.
    Since the first scorecard was produced over a year ago, we 
have improved performance by over 25 percent. We also initiated 
a whole initiative around normalcy, as Sen. Detert mentioned. 
We issued open letters to demand normalcy in all of our foster 
parents and provider organizations. We developed media 
campaigns and we issued social networking policies to basically 
say children can have access to the Internet. And, as you all 
know, I think every child has to have access to Face Book.
    That's a new requirement in our children. So this bill is 
absolutely key to our success; but, another key initiative that 
we knew we had to have was an initiative we called Fostering 
Florida's Future. And Tanya will address what we tried to 
accomplish there.

     TANYA WILKINS, ADVOCATE FOR FOSTER CARE AND ADOPTION, 
       GOVERNOR'S OFFICE OF ADOPTION AND CHILD PROTECTION

    Mrs. TANYA WILKINS. Good morning, Chairman Reichert, 
Congressman Davis, Members of the Subcommittee. Thank you for 
allowing me to speak to your committee about the Fostering 
Florida's Future Initiative. Recognizing that Florida needs 
additional quality foster parents and families who can provide 
safe and loving homes to children in need, we launched the 
Fostering Florida's Future initiative in June of 2012. This is 
a collaboration with our 20 community-based care organizations 
throughout the state with the Guardian Ad Litem, the Florida 
State Foster and Adoptive Parent Association, Quality Parenting 
Initiative, local associations and many others.
    When the Governor appointed me as the state-wide advocate, 
I had no idea how it would change our lives and touch our 
lives. We had been a sponsor family for foster children, 
teenage girls, primarily, from a residential group home in 
Tallahassee. We served them, and as we served them, we would 
listen to their stories. It was heart-wrenching the stories 
that they told us at night when we were tucking them into bed 
at night. And I had to listen to their stories--and we would 
say prayers--of the neglect and abuse that they had endured; 
and, yet, a blessing that we knew we could help empower them to 
overcome and have a future.
    We parented them as we would our own, much like the 
hundreds of foster parents that I've been fortunate to meet. 
Based on these learnings, we landed on an action plan for 
Fostering Florida's Future initiative. We developed an 
awareness campaign with a website, videos and social media. We 
created a recruitment campaign to find 1200 new foster 
families, quality foster families for our children. And we are 
trying to reach that goal by June of 2013, this year.
    We are improving training for foster parents through the 
Quality Parenting Initiative, using trauma-informed care 
principles focusing on awareness of attachment disorders, and 
we have simplified the licensing process. Fostering Florida's 
Future is showing great success in building enthusiasm and 
getting people interested in fostering and making a difference 
in these children's lives; but, most of all, it's helping to 
provide loving and caring families that these vulnerable 
children need.
    [The prepared statement of Mr. David Wilkins follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
  

    Chairman REICHERT. Thank you. Thank you.
    Ms. Tiede.

STATEMENT OF LYNN TIEDE, SENIOR ASSOCIATE DIRECTOR FOR POLICY, 
            JIM CASEY YOUTH OPPORTUNITIES INITIATIVE

    Ms. TIEDE. Good morning. It is my pleasure to be part of 
today's hearing on ``Letting Kids Be Kids.'' I thank the 
Committee for the invitation to be here and I commend you for 
inviting Talitha to give testimony as well.
    We know first-hand that results are always better when 
young people that have experienced foster care are involved in 
the conversations. I am the policy director with Jim Casey 
Youth Opportunities Initiative, a national foundation named in 
memory of the founder of United Parcel Service, UPS.
    We are focused solely on helping states and communities 
assist older youth in foster care in making successful 
transitions to adulthood. In fact, this hearing is very timely. 
Just this week, Jim Casey launched a national campaign, 
``Success Beyond 18,'' which promotes state policies supportive 
of normalcy for older youth and young adults in foster care.
    Based on our experiences working in communities across 16 
states, partnering with youth leadership boards, we have 
encountered many, if not all of the barriers that you've heard 
about today. A key underpinning of the Jim Casey approach is 
the knowledge we now have about adolescent brain development. 
This science provides compelling evidence on why these normal 
experiences are so vitally important, especially as young 
people reach their teenage years. States have already begun to 
apply this knowledge.
    The two, critical things to know about adolescent brain 
development is that adolescence is a time of profound brain 
development, paralleling that of early childhood. The brain is 
not done developing at 3 or 6, as previous believed. Secondly, 
the impact of trauma on the brain is not permanent. Through 
adolescence and early adulthood, the brain can alter its 
structure in response to positive experiences and positive 
relationships.
    What does this mean? It means that adolescence is a time 
rich in opportunity, and potential to help young people 
overcome adversity, overcome trauma through positive 
experiences like those normal experiences we're talking about 
today, like playing on a sports team. It has done for us in 
many ways what the research on early childhood brain 
development did. It tells us that what families typically and 
naturally do is what is right.
    How do we act on this knowledge? We do this through letting 
kids be kids, which inherently involves a degree of risk. Any 
parent knows that and has lost sleep over it. Yet, we also know 
that gearing our kids towards these kinds of normative risks 
and healthy relationships will mean they are less likely to 
engage in more dangerous risks and unhealthy relationships.
    Talking to young people, they summarized the barriers that 
they face on a day-to-day basis, and you've heard about them 
today; not being engaged in normal, every day-to-day 
activities; internalizing a culture of ``no,'' after hearing 
``no'' again, and again, and again, and just wanting normal 
family experiences like a family vacation. From our efforts in 
states to normalize foster care, we've seen progress that can 
be built upon. One area you've heard about today, policies must 
explicitly support kids in foster care being involved in normal 
activities.
    I commend the folks here from Florida for your work in this 
area. We also need a reduced reliance on congregant care as it 
poses inherent challenges to normalcy. There are two more 
promising areas that I'd like to highlight. First, we must also 
promote opportunities, because it's not enough just to remove 
barriers. This includes empowering foster parents and other 
care givers with decision making ability. Training and support 
as also was mentioned. It also includes supporting specific 
opportunities that are age appropriate, for example, financial 
skills.
    Financial skills are one of the things that young people 
report as most lacking when they leave foster care. Jim Casey, 
with our partners, implement the Opportunity Passport which 
provides young people with opportunities to earn money and save 
in a matched savings account. We have shown that young people 
can and will save money and they learn financial management 
skills along the way.
    Why has it worked? Because it provides what most families 
do for their teenagers and young adults; real life experiences 
managing and saving money for things that the young people care 
about and that will help them on their path to adulthood, like 
a car to go to work and school or a computer for college.
    The second and critically important area is to ensure that 
young people are not only engaged in speaking out, as Talitha 
has today, and is important--but are also engaged while in 
foster care in decisions about their lives.
    Too often young people in foster care have never been asked 
``what interests you, what were you involved in before foster 
care, or what would you like to do''? Engaging young people, in 
their case planning where decisions about their life are made, 
is no different than a family sitting around the kitchen table 
talking with their teenager about the upcoming school year and 
planning what activities they want to be involved in.
    It's merely starting from the same place families do, which 
is ``what about you is special'' rather than where we too often 
start in the child welfare system which is ``what about your 
life went wrong?'' States are moving in this direction, but 
more can be done. Promoting clarity in state polices, 
incentivizing placements in homes, in family homes, with 
appropriate training and supports, incentivizing experience-
based opportunities and revisiting the federal case planning 
framework and guidance to be modeled on the best practices 
we've learned in states.
    In conclusion, we should not be surprised that when we do 
not let kids be kids, we do not let them have normal 
experiences and grow up as most kids do, that they continue to 
face barriers well into adulthood. At Jim Casey, we know that 
we can do better. Thank you very much for this opportunity to 
address the committee.
    [The prepared statement of Ms. Tiede follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
 

    Chairman REICHERT. Well, thank you all for your testimony 
and thank you for being here . The first part of the hearing 
was your testimony and the second part of the hearing will be 
some questions. I know the members of this Subcommittee are 
anxious to ask questions. I was a foster grandfather for a 
number of years until my daughter and her husband adopted two 
children. And they're drug-addicted babies and watching, they 
were three months old when they were adopted and--well, taken 
in as foster children and then finally adopted. But, they're 
ten and eleven now and they're playing soccer, she's a painter, 
Briar is a soccer player. But, they have a good solid 
foundation.
    The first hearing that this Subcommittee had was looking at 
how we can move foster children to adoptive homes more quickly. 
It's sort of a preventative move, creating that solid 
foundation that Talitha didn't--that you missed. And we're 
working on that.
    So, my question is what can we do to help? The Federal 
Government, you hear all the time we're from the Federal 
Government and we're here to help. And I know when I was the 
sheriff and the FBI came and told me that, I ran the other way. 
I hope there aren't any FBI agents in the audience this 
morning.
    But, we really do want to assist you in letting kids be 
kids and that's why we're holding this hearing. Can you think 
of some way that the Federal Government can play a role? And 
then secondly, is there any federal law that you can think of 
that's causing states to react in the way that they are? I 
understand liability is a huge issue, but is there any federal 
law that's really causing the states to have a reaction and 
limit the activity of foster youth? Senator?
    Ms. DETERT. I kind of thought you might ask something like 
that. I do the same thing. They always blame it on government, 
but is government really the problem?
    It's really a mind set and it starts at the Federal 
Government and it goes down. And the mind set was safety and we 
just need to change the emphasis to permanency and to normalcy.
    So, if the Federal Government would just rearrange its way 
of thinking, which is what we've had to do in Florida as we 
wrote this law. What we're doing is changing the dynamic, 
empowering foster parents so they can behave more like real 
parents and change the dynamic in the relationship.
    The relationship under current laws is that kid and their 
caseworker, and the caseworker turns over eighteen months, and 
they have less of a relationship with the foster parent.
    So, my vision is you have more of a relationship with your 
foster parents, empower the foster parents, free them up from 
some liability and, you know, for normal decision-making and 
break that cycle where the kid has to go to court for 
everything. And we're the lawmakers and we're the ones that 
make those rules and regulations. And so, if we could just 
change the way we think and just say does this make the kid's 
life easier or harder?
    One of the things in meeting with so many of these foster 
kids, and this girl is probably a prime example, there are so 
calm and patient. And I think that probably comes from years of 
waiting for the caseworker, or sitting in court waiting for a 
decision. They're certainly not usually hyperactive. So, it's 
more of a mind set than a law.
    Chairman REICHERT. Can I ask Talitha? You know, you grew up 
knowing the system. I grew up in the sheriff's office knowing 
the system in an entirely different way, watching young people 
like yourself move through the system. Is it mostly local law, 
state law, federal law? Did you get into it that deeply or you 
just knew you were under the law, a law?
    Ms. JAMES. You're speaking of while I was in care?
    Chairman REICHERT. Yes.
    Ms. JAMES. Yes, so when you're in care, when you're in the 
thick of it, all you know is the system whether it be state, 
federal, but mainly I knew the system to be the social workers. 
So, it wasn't a matter of legislation or law, but it was the 
social workers because I had face-to-face contact with those 
individuals who were making my life a miserable hell, so.
    Chairman REICHERT. Yeah. Now, as you look back, do you see 
specific laws that--?
    Ms. JAMES. I wanted to touch on a point where you asked 
what can be done. I feel like the social workers are the ones 
who are being scrutinized because they have liability as well, 
so I think it needs to be addressed at that level as well 
because a social worker can only make a decision based on the 
grounds that they're given. And then they put those same 
barriers up on the foster parents. I think that needs to be 
addressed. And there are so many social workers who would 
rather check off the box that they're doing their job versus am 
I really doing this for the good of a child? So, that needs to 
be addressed.
    And also you asked about how can we move older youth into 
permanent homes, which I did have the option to be adopted--or, 
not the option; I was not adopted when I was in care. But, 
there is a program that I work for called Kidsave. And we have 
a Weekend Miracles program and we help to get older youth from 
foster care in adoptive homes through hosting.
    So, we have a program where you're able to host a child for 
a year, get to know them naturally, and then these families are 
able to adopt them because they know them naturally. They get 
to work out the kinks of building a relationship that most 
adoptive families don't have the opportunity to do so because 
they're given the child without any experience. So, I think 
that is a great program and we have an eighty percent success 
rate if you want to look at it, so.
    Chairman REICHERT. Well, with you involved, we know it's 
going to succeed. Thank you.
    Ms. JAMES. Thank you.
    Chairman REICHERT. Ms. Clements, did you have a comment?
    Ms. CLEMENTS. Yes, sir, I did. We currently have the Child 
and Family Services review that every state goes through every 
four years and those are built on safety, health, and well-
being, where you look at the outcome performance measures that 
states are supposed to meet. And we know the states are not 
meeting those very well historically over the last two rounds.
    But, we already have a mechanism through the CFSR review 
where we address well-being and that's where normalcy fits in. 
And so, I think if we would re-look, review those outcome 
performance measures that are in the CFSR review and maybe put 
some teeth into them, more emphasis into that. Maybe less on 
the safety part because hopefully, we've got that down pretty 
well across the country.
    But, use a tool we already have, a system we already have 
in place, so that when these reviewers come out and visit the 
states every four years, they'll be looking more in depth at 
the well-being.
    And so, if states aren't doing a very good job at that, 
then they're going to have to do their program improvement plan 
back to the feds about how they're going to improve that over 
the next two years until their next CFSR review.
    I think that the mechanism is there; it's just reviewing 
what the content of those performance measures are to make sure 
that they're in line with this new way of thinking.
    And then the other piece that is probably local, or state 
and then local, depending on how the child protection systems 
are set up. And some states are state-run, some are county-run, 
so you have lots of different people making rules and 
regulations and setting standards, especially for foster homes 
and what they can and can't do, what they can allow children to 
do and not do, is the whole piece of the liability concern.
    You know, we have immunity for our state employees in my 
state where I live in Texas, but you can't even get liability 
insurance for a foster parent. Nobody wants to do that.
    Chairman REICHERT. Right.
    Ms. CLEMENTS. And you know, foster parents are investigated 
over so many things and one example was a little boy that his 
mother was standing four feet from him. He was climbing a tree. 
He's nine years old and there was three other little boys at a 
little birthday party and they were climbing this tree. He fell 
and he broke his arm and of course, Murphy's Law, they got a 
full-blown investigation for child abuse. And he just fell out 
of the tree. I mean, it was an accident, but he was climbing, 
he was having fun with his friends. And so, the foster family 
had their children removed from their home. They went through 
this kind of stuff, they were in fear that the birth parents 
might bring a lawsuit against them, you know, all that kind of 
stuff.
    Chairman REICHERT. Right.
    Ms. CLEMENTS. Those are the realities of care, so however 
we take the time to change the systems from risk of adverse, 
like I said, to something that embraces taking risks so 
children can have normalcy.
    Chairman REICHERT. Thank you. And Mr. Secretary, I'm going 
to ask for your response in writing because I've gone way over 
my time and my committee members are going to really get upset 
with me, so Mr. Davis, you're recognized.
    Mr. DAVIS. Thank you very much, Mr. Chairman. Ms. James, 
let me ask you and I commend you first of all for your personal 
development, the way that you navigated the system, and for 
being who you are and where you are at this point.
    Do you think you would've gone to college necessarily had 
you not been able to express your interest in athletics?
    Ms. JAMES. I would say I would not have gone to college had 
my aunt not cared for me at the age of fourteen and her 
guidance is what got me to where I am today. So, had she not 
taken me in, I would not have been able to play sports, I would 
not have been able to graduate high school. Only three percent 
of foster youth graduate high school. One percent then go on to 
graduate college. So, she set me up for a lot of things when 
she took me into her care. So, I give all the credit to her and 
to God, of course.
    Mr. DAVIS. Well, thank you very much. I think that she is 
indeed an angel and there are many angels like her.
    The community that I live in has a great deal of interest 
concerning engagement in child welfare issues. As a matter of 
fact, my congressional district has more children who live with 
someone other than their natural parents than any other 
congressional district in America. And the district that is 
adjacent to mine is number two in terms of children living with 
someone other than their natural parents.
    We have every kind of program that one can imagine. The 
State of Illinois has a good system and I commend them for 
their forward thinking.
    One of the areas that we have difficulty with, though, is 
recruiting foster parents for teenaged young people. That seems 
to be a big problem for us. We've got programs where foster 
children are living with grandparents, where grandparents are 
raising grandchildren. But, finding foster parents for 
teenagers, Secretary and Mrs. Wilkins, could you all address, 
because I am tremendously excited about your success in this 
area; how you really get foster parents for teenagers.
    Mr. DAVID WILKINS. Thank you. I agree, it is a major 
challenge. And fortunately or accidentally, it--Tanya and I--
the children we fostered were teenagers, so we jumped right in 
as well.
    But what we have tried to do in Florida is look at the 
recruitment of foster parents as a major imperative and a focus 
area. And my simple business background says you get what you 
measure and you get what you focus on. And so what we said is 
just in general, if we are going to create this normalcy 
initiative, then we have to raise the bar on foster parents. 
And so we need to expect more out of foster parents, and so 
the--because they have to do all these things we talked about, 
in terms of getting the kids to soccer practice and demanding 
performance in academics on the children, and all those kind of 
things.
    So we have really looked at creating a--literally just a 
private sector marketing program, going after people 
differently and telling people that foster parenting is not 
like your father's Oldsmobile. Foster parenting today is 
different than it was 20, 30 years ago. And so we are looking 
for those families who really wanted to dedicate their lives. 
And what we are finding in Florida is they are there. And what 
we need to do is go outside the normal channels. Reach out to 
the faith communities, reach out to other NGOs, and reach out 
to private businesses to partner with us on these types of 
things. And it can be accomplished.
    Mrs. TANYA WILKINS. When we started taking foster children 
in our home, everybody thought we were crazy. They think that 
foster children come with all of this baggage, that they're bad 
kids. They are kids from tough places. And when we showed up 
the same place, church, wherever, about the 16th time, people 
would say, ``You are okay and you still have these children.'' 
And I said, ``Absolutely.'' And as people get to know the 
children, they will realize that they are so--so many decisions 
that they make are fear-based. They are scared to death. These 
children have been moved and moved and moved. There is nothing 
stable in their life.
    So if you understand that, which is part of our training 
for new foster parents and for older ones that want to stay 
there--if you understand that about the children that we deal 
with--there is normal adolescent behavior, there is normal 
childhood behavior, and then there is trauma. And that is going 
to be fear-based behavior. So in that--if you explain that, you 
will reach those people that have the heart to care, but then 
also will be equipped to be able to do that. So as David said, 
I have dragged him all over the state of Florida to do 
recruitment. And when people hear the message and the awareness 
of the need, when we go to a community and say--in this 
community in Tallahassee, when we presented to them and said, 
we have no one in this Tallahassee area that will take a 
teenage girl, we had probably 50 people that responded and 
said, ``I will do it from my heart.''
    So you have--David calls drinking the Kool Aid. You have to 
get the awareness out there and talk about these children. That 
they are children that want to be loved and cared for. And if 
you get out there and tell that, and spread that kind of 
message--so there is not--there are marketing plans and then 
there is getting to the people and telling them what you really 
need. And it is working in Florida. It is exciting.
    Mr. DAVIS. Thank you very much. Thank you, Mr. Chairman.
    Chairman REICHERT. Thank you, Mr. Davis. Mr. Renacci, you 
are recognized.
    Mr. RENACCI. Thank you, Mr. Chairman. I want to thank you 
for holding this hearing. And I want to thank all the witnesses 
for your testimony. It has been a learning experience, I know, 
for me, in listening to all of you and reading your testimony.
    One thing I have learned in looking into some details in 
Ohio, which is the state I represent, 12,000 Ohio children are 
living in foster care each month. Last year, more than 1,500 
foster children aged out of care when they turned 18. When I 
hear these statistics, I think about whether or not the system 
has really prepared the young adults to become successful in 
their adulthood. Our job as their representatives should be to 
set them up for success, not to make their lives more 
difficult.
    I understand there are states like my home state of Ohio 
that have begun to lessen the barriers for foster youth to 
engage in normal activities. One thing I heard today was a lot 
of discussion about Florida and some of the things Florida has 
done. And Senator Detert, as a legislator, what did it take to 
get Florida interested in changing their current foster system?
    Ms. DETERT. Thank you for that question.
    A friend of mine who gives me simple but startling advice 
once said, first you have to care. And years ago, I had a 
foster girl--I mean, it is really not on anybody's radar. And 
the most--when you talk about the subject to your colleagues 
and to groups, they say, I had no idea. Because none of us have 
any idea. And what got to me was a foster care girl walked into 
my office when I chaired Children and Family in the House.
    And she said, ``Why does the state of Florida keep screwing 
with my life?'' And I said to her, ``We spend millions of 
dollars to do that to you. Why don't you sit here and tell me 
how we can spend millions of dollars to fix your life?'' And 
she went through her list, which was legitimate. We--I have 
been moved four times. My whole goal is just get out of foster 
care. You are not helping me. You are not doing anything. She 
was turning 18. She was going to go in the Army.
    So my staff, I told them, sit down with this girl and make 
a list and see what we can fix. And it is simple things. Don't 
move them in the middle of their school year and make them 
repeat a whole year. This is not helping. So because of that 
girl, that year we did a bill that I sponsored and I got--I 
named it the Road to Independence. Which covered foster care 
kids from 18 to 21. Because we found when they left foster care 
they were ending up homeless or in jail. They have grown up 
with no family support. Nothing there for them. So under that 
piece of legislation -which we used with your federal dollars, 
thank you--those kids, as long as they were in community 
college, university, or any kind of school that would get you a 
job, we would give them a small monthly stipend.
    So I did that bill probably 10, 15 years ago. 2008, I got 
elected to the Senate. I was not thinking of serving on that 
committee anymore, but I signed up for it. And who came back 
but all those kids that originally were in the Road to 
Independent program. And now they are grownups and they help 
other foster kids. And it has just been thrilling. So really, 
first you have to care. You have to tell your colleagues. You 
have to take an interest. We pass laws and then we have to 
survey and see are they working.
    Mr. RENACCI. Well thank you for caring, and I do want to 
thank the other witnesses. Because I know there is a lot of 
caring at that table as well.
    Mrs. Clements, I heard in testimony a lot of discussion 
about breaking the rules. And I would like to find out a little 
more about that. What would be the repercussions for a 
guardian, should they break a rule with the foster child?
    Ms. CLEMENTS. Well, there are standards that every home has 
to follow, and you are supposed to be in 100 percent compliance 
with all those standards that are set up by your individual 
state or county on what it takes to be a foster parent. They 
are very restrictive and almost make families have to act like 
little institutions because they have to be so restrictive on 
the kids. And when either the private agency that you foster 
for or the state licensing people come out and they look at 
that, and you are not following the rules, there is an 
investigation. And the example I used about the foster mother 
who had an emergency at the hospital with another child and 
could not go pick up her foster son from football practice, not 
only did she get in trouble because the coach and the parent 
did not have a background check, neither one of them had a copy 
of their automobile insurance on file with the caseworker. That 
is how nit picky it gets. So you get investigated because you 
have broken those rules. And there are so many of them that you 
have to back off and you can't let kids do anything.
    Mr. RENACCI. Thank you. I know I have run out of time. 
Thank you, Mr. Chairman.
    I yield back.
    Chairman REICHERT. Unfortunately, we are going to be called 
to go vote in a few minutes. So we would like to continue the 
hearing, but if the members could be more poignant in their 
questions, we can go vote. Mr. Reed is recognized.
    Mr. REED. Well, thank you very much, Mr. Chairman. Thank 
you to the witnesses for coming today. I do want to publicly 
acknowledge some work by a colleague of mine who is not a 
member of the Committee but is here today, a good friend of 
mine, the gentle lady from California. And this is a Republican 
publicly applauding a Democrat on the other side of the aisle 
because she is a tireless advocate for adoption, and I applaud 
her for those efforts.
    And this is one of those moments where--you don't get a lot 
of good testimony down here, many a days. But Ms. James, Ms. 
Wilkins, hearing your testimony makes me proud to sit here and 
hear it. My hat is tipped to you. We have passed some 
legislation here recently on the Federal level, 2008, 2013, 
some acts. And one of the concerns I always have when we act 
federally, we sometimes think that one size fits all as to this 
issue. And I would be very interested in knowing from maybe Ms. 
Clements, Mr. Wilkins, and the state senator--is this area 
really a one size fits all issue that a Federal standard could 
address? Or is this something that we should give the 
discretion to the states for to try to deal with it on a state 
by state basis? Anyone want to take a stab at that?
    Mr. DAVID WILKINS. Great question. One of the reasons 
Florida has been able to ``turn around'' their system over the 
last 8 years is because you guys granted the state of Florida a 
waiver in our child welfare system. And in that waiver, we have 
now more flexibility of, in essence, how to spend the money. 
And so we have then been able to move more of our costs to the 
front end of the system and we are continuing on a journey to 
really focus more on prevention types of activities. And I 
think the results speak for themselves. I mean, if you look 
at--just at the mathematical progress that Florida has made 
over the last 8 years, it is a model that other states could 
benefit from. Now, how Florida did doesn't necessarily--
probably, there is not even a one size fits all, I think, 
because other states are coming from different places and would 
go after an implementation differently.
    But I would definitely encourage giving more waivers to 
states. But going back to a comment Irene made, too, was--is 
continuing to hold states accountable for outcomes, not process 
results. And we still get a lot of Federal Government reporting 
and measurements based on process. It doesn't matter how many 
kids we have, it's the progress of those children. Right? And 
so if we do that, then people don't get as obsessed about 
following all the rules and procedures, because it is not about 
process. Instead, it is about making the right decisions for 
kids.
    Mr. REED. Mrs. Clements? Want to offer?
    Ms. CLEMENTS. Completely agree with the secretary on that 
one. I do believe we have the system already in place through 
the Child and Family Service Reviews to look at the outcomes of 
these performance measures and let the states decide how they 
are going to do it. Because we all have a different personality 
out there, depending on where we are from. And that is, I 
think, the key.
    Mr. REED. Senator, I don't know if you want to offer 
anything, but----
    Ms. DETERT. I would agree with the secretary on that. 
Flexibility and accountability, and we are there.
    Mr. REED. Very good. So then I generally am hearing, let 
states have the flexibility and the Federal Government 
potentially have an accountability oversight type of role. And 
I appreciate that. Because the other issue that is out there is 
that--we are hearing some great stories today, but we also--I 
have heard the horror stories of the .001 percent situation 
that needs to be recognized as we go through this. Because God 
forbid that that happens in the future and we had an 
opportunity to do something about it. And so I just offer that 
as kind of a sensitivity that I am too--that I am aware of, and 
that--and trying to grapple with as we deal with this. Giving 
flexibility but at the same time making sure that 
accountability gets at that .1 percent situation that we have 
identified.
    So with that, Mr. Chairman, I yield back and I appreciate 
the Chairman's hard work in this area. And I know he is 
personally committed to this area also.
    Chairman REICHERT. Thank you, Mr. Reed.
    I think what I am going to do is limit the time now to 
three minutes so that we can make sure that every member has an 
opportunity. Mr. Young is recognized.
    Mr. YOUNG. Thank you, Mr. Chairman, and thank you all for 
your testimony. I will try to speak quickly and ask you to 
perhaps respond pointedly to the questions I have.
    Common sense and the powerful testimony of people like Ms. 
James tell us that a certain amount of innovation at the state 
level is certainly helpful to our foster care population. That 
is evidenced not just by testimony but also by hard evidence, 
much of which we receive, as has been indicated, through the 
Child and Family Service Reviews. My first question would be to 
Ms. Wilkins and Senator Detert. If you could speak to those 
reviews, do you have any ideas for improvement with respect to 
those reviews?
    Ms. DETERT. To reviews by the Federal Government?
    Mr. YOUNG. That is right.
    Ms. DETERT. Of the state?
    Mr. YOUNG. That is right. You are on the receiving end of 
them, so----
    Ms. DETERT. Right.
    Mr. YOUNG. Yeah.
    Ms. DETERT. And I think, frankly, if you would do surveys 
of the kids aging out of foster care, and if they had an 
opportunity, one of the things that bothers them is they feel 
they are caught up in a whirlwind of a bureaucratic system, and 
that they don't have a voice. So I would say surveying them and 
then looking at our results.
    Mr. YOUNG. Okay. That sounds excellent. Got a minute forty 
left, very quickly on this because I have another question, 
please.
    Mrs. TANYA WILKINS. Yeah, one thing that we did do was not 
have the government call the foster parents that had been in 
that situation before, fostering. And so we had foster parents 
call foster parents that had quit fostering for whatever 
reason. So we specifically did that so that they would open up. 
And so you are not going to open up to DCF or whatever. So we 
got a lot of information about what barriers there are, and 
then I spend a lot of time speaking with youth in--under 18 and 
over. ``And what held you back from where you want to go in 
life?'' And all these things. And we bring them back, and I am 
fortunate enough to live with this man, so I can kick him at 
home and say, This is what needs to be arranged in DCF----
    Mr. YOUNG. Sure.
    Mrs. TANYA WILKINS [continuing]. Or the system, or 
whatever.
    Mr. YOUNG. Briefly, we have laboratories of democracy, so 
to speak, here. If we empower you to innovate, I think it would 
be helpful for other states to learn from your innovation. 
Perhaps they adopt some of your best practices. Perhaps they 
learn from worst practices and failed experimentation. Through 
what means or forum do you share such information and can the 
Federal Government, to your mind, help facilitate such 
conversation and sharing of information either way? I will give 
this to either of you that maybe have strong feelings.
    Senator?
    Ms. DETERT. Yes. What we found--we're talking about our 
normalcy bill today, and it's very important in the lives of 
the kids, but we also did another huge bill that is yet to be 
signed by the Governor, but he will sign it, extending foster 
care to age 21 for no new money, and the way we did that is to 
look at our budget and look at what we've privatized and 
community-based care and how many things are vendor-driven 
rather than child-driven.
    Mr. YOUNG. But state-to-state conversation is just an 
informal basis? Is that right?
    Mr. DAVID WILKINS. Yeah. And I would personally like to see 
more standardization on the accountability issues for states, 
because when we go and look at other states and try to 
understand who is doing something good, everybody measures 
things differently, and so, there's--it's very complicated.
    We do have some great organizations, like all the different 
Casey organizations that try to help triangulate that, but 
better standardization on the accountability issues nationally 
would help.
    Mr. YOUNG. Thank you.
    Chairman REICHERT. Mr. Kelly.
    Mr. KELLY. Thank you, Chairman, and thank you all for being 
here.
    My question, Ms. James, would be to you, because I don't 
think that most of us would realize the difficulties that could 
come from participating in sports and it wasn't till your aunt 
took you in that you were able to do it. I've got to tell you, 
those life experiences, playing in teams sports, are not about 
making the major leagues, it's about making a major difference 
in your life, and every life is a journey. Tell me more the 
difficulty--that's hard for me to understand.
    Growing up in a little town where I coached youth sports--
and I want to talk to--Mr. Young--he talks about his soccer 
days. Mr. Renacci talks about all the football and baseball and 
days he had, and of course, my friend Tom Reed was a great 
swimmer.
    But for you, a huge difference in your life, was it not, 
being able to have a common goal. Tell me, how tough was it, 
though, and why couldn't you play when you were in a foster 
home?
    Ms JAMES. Thank you for the question. I could not play 
prior to me being with my aunt because of the barrier of money. 
So, a lot of foster homes, they did not want to pay an 
additional fee out of their pocket for me to pay for my uniform 
or just have money when we had a game out of town.
    So, those were the things that prevented me from doing 
that, as well as taking me to practice.
    So, a lot of the foster parents were not foster parents; 
they were bystanders in the process.
    But a lot of issues came about because you have to travel 
outside of your residence. So, if I traveled 100 miles outside 
of my residence, I would need county approval or my social 
worker had to sign off on it, and she would have to go to the 
courts to get that approved.
    So, that was an issue until my aunt just said this is 
nonsense; I'm just going to do what I am going to allow you to 
do.
    Mr. KELLY. That's great. Did your aunt come and watch you 
play?
    Ms. JAMES. Absolutely, yes.
    Mr. KELLY. We just passed a bill yesterday in the House 
that's going to allow comp time where people can actually go 
and watch their sons, their daughters, their nephews and nieces 
play, which I thought was a great piece, so I'm glad that 
happened to you.
    Ms. Clements, you talk about Mary in 4-H. I was a 4-H'er, 
and I know it's about head, heart, health, and hands.
    Ms. CLEMENTS. Absolutely.
    Mr. KELLY. What another great experience. But if you are a 
foster child, you can't participate in 4-H?
    Ms. CLEMENTS. Well, you can.
    Mr. KELLY. But----
    Ms. CLEMENTS. Right. But everybody has to have a background 
check. You know, again, the child couldn't go to 4-H camp every 
summer. I mean, I went for nine years and it was the biggest 
deal of my life each time. But if you are a foster child, you 
often can't go because it is too far away from home and there 
are too many people without criminal history checks.
    You had all these people there that were adults and kids 
over 14 where, in my state, they all had to have a background 
check if you're going to be around them more than a few hours.
    You couldn't do those things, and it just totally, totally 
ties the hands of the parents who are trying to take care of 
these kids and frustrates the children to the point where they 
have acting-out behaviors.
    It's not that they're bad kids. They're just so darn 
frustrated with the system, and they don't trust anybody 
anymore to do their best interest.
    Mr. KELLY. Yeah. Well, that's great you can mainstream 
them, and thank you for all being here.
    Mr. Wilkins, congratulations on the award, private sector. 
You've got to inspect what you expect. So, you're seeing some 
changes. It's what you've done that makes a difference.
    Thank you all so much for being here.
    Chairman, thank you for having this hearing.
    Chairman REICHERT. Thank you, Mr. Kelly.
    Mr. Lewis is recognized.
    Mr. LEWIS. Thank you very much, Mr. Chairman.
    Mr. Chairman, I will be very brief.
    I want to thank members of the panel for being here. I've 
read some of your testimony. I apologize for not being here 
earlier. I was on the floor.
    But Mr. Chairman, I want to thank you for holding this 
hearing, and thank Mr. Davis for being here, and for the other 
members, and I want to thank our colleague, Congresswoman Bass.
    Since she's been here, she's been a strong advocate, 
unbelievable spokesperson in the House, on the Hill, for foster 
care.
    So, thank you.
    Ms. James, I had an opportunity to read your testimony, and 
I admire all of you for all of your work--the parents; Senator, 
for your leadership and your vision. Ms. James, I admire you 
for not giving up, for not giving in, for not becoming bitter 
or hostile but for keeping the faith with a sense of direction 
and a sense of purpose.
    I notice, in the end, at the end of your testimony, you 
quoted Martin Luther King, Jr., Dr. King.
    Ms. JAMES. Absolutely.
    Mr. LEWIS. I knew Dr. King. I met him when I was 18. I met 
Rosa Parks when I was 17. I grew up in a very large family, 
very, very poor, but individuals that I met and came in contact 
with inspired me and lifted me, and someone along the way in 
foster care, no doubt, lifted you, and you just kept the faith. 
Thank you.
    Ms. JAMES. Thank you.
    Mr. LEWIS. Thank you, Mr. Chairman. I yield back.
    Chairman REICHERT. Well, if you're not inspired by that----
    Ms. JAMES. Let the church say amen.
    Chairman REICHERT. Amen.
    Thank you, Mr. Lewis.
    Mr. Griffin, you are recognized.
    Mr. GRIFFIN. And this Baptist says amen.
    I want to apologize for not being here earlier. I was on 
the floor with the highly esteemed Representative Lewis, and I 
appreciate his words, and it's always an honor to serve with a 
living legend and a civil rights icon, and I appreciate 
everything that he does.
    I just want to mention that there's a great program in 
central Arkansas, in Little Rock, called The Call. You're 
shaking your head. Children of Arkansas Love For a Lifetime. I 
call it The Call.
    My wife and I have been learning about that through our 
church, Immanuel Baptist Church. A lot of churches in Little 
Rock are working with The Call, which is a nonprofit, and the 
purpose is to find more foster parents. There are something 
like 7,000 children in Arkansas in any one year in foster care 
and only about 950 families, and so, in addition to improving 
it, we've got to do more recruiting, but one of the things that 
really struck me and that I want to get your input on is this--
this is a nonprofit. It is a faith-based, Christ-centered 
organization with a lot of local churches in it. It's very open 
about that.
    But I've been really impressed that the top levels of 
leadership in our Arkansas Department of Health and Human 
Services, Division of Children and Family Services, have been 
active. It's described here as unprecedented cooperation 
between state government and these churches, which I think is 
fabulous.
    The churches are meeting a need that they believe and I 
believe is part of our Christian mission to love kids who need 
homes, and the government is saying this is helpful and is 
partnering.
    So, I'm wondering, have you heard of this? Have you heard 
of similar cooperation between churches and the government in 
other states? Any of you want to comment on that in my very 
limited time?
    Ms. TIEDE. Very quickly, I know that Commissioner Corrigan 
in Michigan has had a similar outreach. They are under a 
consent decree and needed to recruit, I think, 600 foster 
family homes within a year, I believe, and she called together 
all of the faith-based organizations across the state and gave 
them a challenge, and last I heard, they are meeting that 
challenge.
    Mr. GRIFFIN. So, Michigan. Any others?
    Ms. CLEMENTS. Yes, sir, we have a faith-based initiative in 
Texas, as well, and over 400 churches are participating at this 
point, and we're just in the beginning stages.
    Recruiting for foster parents, for adoptive parents, and 
for those who don't feel they can do that, how those 
congregations then can support those that can. Beautiful, 
beautiful programs.
    Mr. GRIFFIN. Well, it seems to me it's a natural network of 
thousands, if not hundreds of thousands and millions of people 
ready to go to work for the same cause that the government has.
    Ms. CLEMENTS. Well, we have 11 regions across the state, 
and there's a state employee in each one that's called a faith-
based initiative specialist. I mean, that's how dedicated the 
department is.
    Mr. GRIFFIN. Awesome.
    Ms. WILKINS. I just wanted to say a quick thing. I went to 
the Christian Alliance for Orphans conference last week, and it 
was 4,000 faith-based leaders across the U.S. coming together 
to talk about this issue, and so, we had breakouts in 
government, Arkansas being one of them and how they use The 
Call.
    So, I met them. I said come to Florida, and we've got some 
great things going on in Florida. We at DCF actually--we--
sorry--he actually has hired a faith-based leader. He was a 
pastor.
    Mr. DAVID WILKINS. It's a partnership.
    Ms. WILKINS. A partnership. I had to find my place. And so, 
we brought him to DCF, and so, he's actually meeting with 
pastors cause they can do the pastor-to-pastor talk and talk 
about why wasn't it on his radar as a pastor, and so, he's 
getting this.
    So, we just were able to speak with Northland in Orlando. 
They have 20,000 members, and it simulcasts all over, right? 
And so, we had 300 that responded to the call, and so, now 
they're going to nurture those through the church in coming 
along, and they're going to save the government tons and tons 
of money in the support that they get, plus it's going to be 
recruitment ongoing in that church.
    Mr. GRIFFIN. It's exciting.
    Ms. DETERT. It's exciting.
    Mr. GRIFFIN. Let me know what I can do to help.
    Ms. DETERT. Okay. Thank you.
    Chairman REICHERT. Thank you.
    Well, we wish we could listen to you all day. You really 
have a lot of excitement, a lot of knowledge, and good or bad, 
some experience in this arena, and I think what you'll find 
from this Committee is a great passion and a devotion to trying 
to find a way, as I said earlier, to help our foster youth.
    There are Members of Congress who have come from places 
that you may not really expect, and of course, Mr. Lewis shared 
just briefly a little piece of his story from a large family 
from a poor neighborhood, and here he is a Member of Congress.
    I know Mr. Davis has had a similar experience. I grew up 
the oldest of seven, ran away from home when I was a junior and 
senior in high school and lived in my car, a 1956 Mercury. I'll 
never buy another 1956 Mercury again in my life.
    But the reason I share that with all of you is that I hope 
that, as you go back and you share, Ms. James, with the folks 
you work with, your experience, there's opportunities.
    You're a very, very bright young lady.
    Ms. JAMES. Thank you.
    Chairman REICHERT. You have a great future in front of you, 
and faith is one of the things I know I've used and I know that 
you have relied on.
    I appreciate all of you--all the hard work you do, your 
testimony here today, and I'm sorry we had to cut it a bit 
short, but that's sometimes the nature of Congress.
    So, we're all going to go vote. We look forward to working 
with you. We are going to be sending you some questions, 
expecting some answers in writing, as I said earlier.
    If members have additional questions for the witnesses, 
they will submit them to you in writing, and we would 
appreciate receiving your responses for the record within two 
weeks.
    The committee stands adjourned.
    [Whereupon, at 10:55 a.m., the subcommittee was adjourned.]
    [Questions for the record follow:]

              Florida Department of Children and Families
              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]              

[Submissions for the record follow:]

                 Generations United Outside Submission


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                           Statement of CCAI


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                        Statement of Linda Young

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                        Letter of Mandy Urwiler

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

             Statement of Will Lightbourne and Frank Mecca


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
